                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




         A review revealed potential plagiarism in a proposal submitted to NSF.' Examination of the
         proposal also revealed an incomplete current and pending support declaration form for the PI.
         We invited both the PI and the cop1 to respond to the apparent plagiarism in the proposal.
         Questions regarding an incomplete current and pending support declaration fiom the PI was
         directed solely to the PI.

         The responses from the PI and the cop1 intermingle the apparent plagiarism of text with
         misappropriation of an idea, and concentrate on refuting the latter allegation, which was not
         conveyed to the PI and the coPI. Both the PI and the cop1 state that the duplicate text was
         provided to them for use in the proposal by an unnamed c~llaborator,~      who confirms ina separate
         letter that he provided the texts for inclusion in the proposal. It is reasonable to conclude that the
         PI and cop1 felt they had permission to use the texts without direct attribution to an author or a


         The PI admits that his extensive current and pending support declaration lacks the required effort
         statements, and claims that the secretary that prepared the special NSF form simply did not
         transfer that information fiom an Excel spreadsheet into the NSF Fastlane form. The PI assures
         us that forms in future NSF proposals will be properly completed.

          The apparent plagiarism was refuted, and the PI promises improved accuracy in his support
          declarations. There are no outstanding issues left unresolved.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
